<html>
<title> - OVERSIGHT OF THE U.S. DEPARTMENT OF JUSTICE: REPORT BY SPECIAL COUNSEL ROBERT S. MUELLER III ON THE INVESTIGATION INTO RUSSIAN INTERFERENCE IN THE 2016 PRESIDENTIAL ELECTION; AND RELATED MATTERS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




OVERSIGHT OF THE U.S. DEPARTMENT OF JUSTICE: REPORT BY SPECIAL COUNSEL 
ROBERT S. MUELLER III ON THE INVESTIGATION INTO RUSSIAN INTERFERENCE IN 
          THE 2016 PRESIDENTIAL ELECTION; AND RELATED MATTERS

=======================================================================

                                HEARING

                               BEFORE THE

                       COMMITTEE ON THE JUDICIARY

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                         THURSDAY, MAY 2, 2019



                           Serial No. 116-18



         Printed for the use of the Committee on the Judiciary






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







               Available via: http://judiciary.house.gov 
               
               
               
               
               
               
                             _________
                              
                 U.S. GOVERNMENT PUBLISHING OFFICE
                 
44-616                   WASHINGTON : 2019
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
                       COMMITTEE ON THE JUDICIARY

                    JERROLD NADLER, New York, Chair
               MARY GAY SCANLON, Pennsylvania, Vice-Chair
ZOE LOFGREN, California              DOUG COLLINS, Georgia, Ranking 
SHEILA JACKSON LEE, Texas                Member
STEVE COHEN, Tennessee               DEBBIE MUCARSEL-POWELL, Florida
HENRY C. ``HANK'' JOHNSON, Jr.,      VERONICA ESCOBAR, Texas
    Georgia                          F. JAMES SENSENBRENNER, Jr., 
THEODORE E. DEUTCH, Florida              Wisconsin
KAREN BASS, California               STEVE CHABOT, Ohio
CEDRIC L. RICHMOND, Louisiana        LOUIE GOHMERT, Texas
HAKEEM S. JEFFRIES, New York         JIM JORDAN, Ohio
DAVID N. CICILLINE, Rhode Island     KEN BUCK, Colorado
ERIC SWALWELL, California            JOHN RATCLIFFE, Texas
TED LIEU, California                 MARTHA ROBY, Alabama
JAMIE RASKIN, Maryland               MATT GAETZ, Florida
PRAMILA JAYAPAL, Washington          MIKE JOHNSON, Louisiana
VAL BUTLER DEMINGS, Florida          ANDY BIGGS, Arizona
J. LUIS CORREA, California           TOM MCCLINTOCK, California
SYLVIA R. GARCIA, Texas              DEBBIE LESKO, Arizona
JOE NEGUSE, Colorado                 GUY RESCHENTHALER, Pennsylvania
LUCY MCBATH, Georgia                 BEN CLINE, Virginia
GREG STANTON, Arizona                KELLY ARMSTRONG, North Dakota
MADELEINE DEAN, Pennsylvania         W. GREGORY STEUBE, Florida

        PERRY APELBAUM, Majority Staff Director & Chief Counsel
                BRENDAN BELAIR, Minority Staff Director 
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                            C O N T E N T S

                              ----------                              

                              MAY 2, 2019

                                                                   Page

                           OPENING STATEMENTS

The Honorable Jerrold Nadler, Chairman, Committee on the 
  Judiciary......................................................     2
The Honorable Doug Collins, Ranking Member, Committee on the 
  Judiciary......................................................     3

 
OVERSIGHT OF THE U.S. DEPARTMENT OF JUSTICE: REPORT BY SPECIAL COUNSEL 
ROBERT S. MUELLER III ON THE INVESTIGATION INTO RUSSIAN INTERFERENCE IN 
          THE 2016 PRESIDENTIAL ELECTION; AND RELATED MATTERS

                              ----------                              


                         Thursday, May 2, 2019

                        House of Representatives

                       Committee on the Judiciary

                             Washington, DC

    The Committee met, pursuant to call, at 9:03 a.m., in Room 
2141, Rayburn House Office Building, Hon. Jerrold Nadler 
[chairman of the committee] presiding.
    Present: Representatives Nadler, Lofgren, Jackson Lee, 
Cohen, Johnson of Georgia, Deutch, Cicilline, Swalwell, Lieu, 
Raskin, Jayapal, Demings, Correa, Scanlon, Garcia, Neguse, 
McBath, Stanton, Dean, Mucarsel-Powell, Escobar, Collins, 
Chabot, Gohmert, Jordan, Buck, Ratcliffe, Gaetz, Biggs, 
McClintock, Lesko, Reschen-thaler, and Armstrong.
    Staff Present: Aaron Hiller, Deputy Chief Counsel; Arya 
Hariharan, Oversight Counsel; David Greengrass, Senior Counsel; 
John Doty, Senior Advisor; Lisette Morton, Director, Policy, 
Planning, and Member Services; Madeline Strasser, Chief Clerk; 
Moh Sharma, Member Services and Outreach Advisor; Susan Jensen, 
Parliamentarian/Senior Counsel; Will Emmons, Professional Staff 
Member; Amy Rutkin, Chief of Staff to Representative Nadler; 
Brendan Belair, Minority Staff Director; Bobby Parmiter, 
Minority Deputy Staff Director and Chief Counsel; Jon Ferro, 
Minority Parliamentarian; Carlton Davis, Minority Chief 
Oversight Counsel; Ashley Callen, Minority Oversight Counsel; 
and Erica Barker, Minority Clerk.
    Chairman Nadler. The Judiciary Committee will come to 
order.
    Without objection, the chair is authorized to declare 
recesses of the Committee at any time.
    We welcome everyone to today's hearing on ``Oversight of 
the U.S. Department of Justice: Report by Special Counsel 
Robert Mueller III on the Investigation into Russian 
Interference in the 2016 Presidential Election; and Related 
Matters.''
    I will now recognize myself for an opening statement.
    Attorney General Barr has informed us that he will not 
appear today. Although we worked to accommodate his concerns, 
he objects to the prospect of answering questions by staff 
counsel and to the possibility that we may go into executive 
session to discuss certain sensitive topics.
    Given the Attorney General's lack of candor before other 
congressional committees, I believe my colleagues and I were 
right to insist on the extended questioning. To my knowledge, 
not even the Ranking Member was opposed to the idea of moving 
into closed session, if necessary.
    Even if Democrats and Republicans disagree on the format of 
this hearing, we must come together to protect the integrity of 
this Chamber. The Administration may not dictate the terms of a 
hearing in this hearing room.
    The challenge we face is bigger than a single witness. Late 
last night, the Department of Justice wrote to inform us that 
they will ignore our subpoena for the unredacted Mueller report 
and the underlying evidence. They have made no meaningful 
attempt at accommodating that subpoena, which was due 
yesterday. The letter references the Attorney General's offer 
to 12 Members of Congress--12 out of 435--to look behind some 
but not all of the redactions provided that we agree not to 
discuss what we see with our colleagues and that we leave our 
notes behind at the Department of Justice.
    It is urgent that we see the documents we have subpoenaed. 
I cannot agree to conditions that prevent me from discussing 
the full report with my colleagues and that prevent the House 
from acting on the full report in any meaningful way. An 
accommodation designed to prevent us from taking official 
action is no accommodation at all.
    Every member of this committee, Democrat and Republican 
alike, should understand the consequences when the executive 
branch tells us that they will simply ignore a lawful subpoena 
from Congress.
    If left unchecked, this Act of obstruction will make it 
that much harder for us to hold the executive branch 
accountable for waste, fraud, and abuse, or to enact 
legislation to curb that kind of misconduct or any kind of 
misconduct no matter which party holds this Chamber or the 
White House at a given moment.
    The challenge we face is also bigger than the Mueller 
report. If all we knew about President Trump were contained in 
the four corners of that report, there would be good reason to 
question his fitness for office. The report is not where the 
story ends. In the days since the Department of Justice 
released a redacted version of the report, President Trump has 
told Congress that he plans to fight all our subpoenas.
    The average person is not free to ignore a congressional 
subpoena, nor is the President. His promise to obstruct our 
work extends far beyond his contacts with the Russian 
Government and allegations of obstruction of justice. The 
President is also preventing us from obtaining information 
about voting rights, ACA litigation, and his cruel family 
separation policy, among other matters.
    The challenge we face is also not limited to this 
committee. In recent weeks, Administration witnesses have 
simply failed to show for properly noticed depositions. The 
Secretary of the Treasury continues to ignore his clear 
statutory obligation to produce the President's tax returns. 
The President's private attorneys sued Chairman Cummings in his 
personal capacity in an attempt to block the release of certain 
financial documents.
    Ladies and gentlemen, the challenge we face is that the 
President of the United States wants desperately to prevent 
Congress, a coequal branch of government, from providing any 
check whatsoever to even his most reckless decisions. He is 
trying to render Congress inert as a separate and coequal 
branch of government.
    The challenge we face is that if we don't stand up to him 
together today, we risk forever losing the power to stand up to 
any President in the future. The very system of government of 
the United States, the system of limited power, the system of 
not having a President as a dictator is very much at stake.
    The Attorney General of the United States is sworn to 
uphold the Constitution as our Nation's chief law enforcement 
officer. He has an obligation to do everything in his power to 
warn the President of the damage he risks and the liability he 
assumes by directly threatening our system of checks and 
balances and of limited government. Sadly, the Attorney General 
has failed in that responsibility. He has failed to check the 
President's worst instincts. He has not only misrepresented the 
findings of the special counsel, but he had also failed to 
protect the special counsel's investigation from unfair 
political attacks. He has himself unfairly attacked the special 
counsel's investigation. He has failed the men and women of the 
Department of Justice by placing the needs of the President 
over the fair Administration of justice. He has even failed to 
show up today.
    Yes, we will continue to negotiate for access to the full 
report for another couple of days, and, yes, we will have no 
choice but to move quickly to hold the Attorney General In 
contempt if he stalls or fails to negotiate in good faith.
    The Attorney General Must make a choice. Every one of us 
must make the same choice. That choice is now an obligation of 
our office. The choice is simple. We can stand up to this 
President in defense of the country and the Constitution and 
the liberty we love, or we can let the moment pass us by. I do 
not--and we have seen in other countries what happens when you 
allow such moments to pass by. I do not know what Attorney 
General Barr will choose. I do not know what my Republican 
colleagues will choose. I am certain that there is no way 
forward for this country that does not include a reckoning with 
this clear and present danger to our constitutional order.
    History will judge us for how we face this challenge. We 
will all be held accountable in one way or the other. If he 
does not provide this Committee with the information it demands 
and the respect it deserves, Mr. Barr's moment of 
accountability will come soon enough.
    I now recognize the Ranking Member of the Judiciary 
Committee for his opening statement.
    Mr. Collins. Thank you, Mr. Chairman.
    Let's be very clear. There is only one reason and one 
reason only at this point we are not being able to fulfill our 
constitutional role of oversight, and that is Chairman's 
demands that were played out yesterday.
    We could have had a hearing today. What bothers me the most 
about this is not only did, in standing for the questions that 
were discussed and the issues that have been discussed between 
me and Chairman, not only did he take the ability of the 
American people to hear again from Bill Barr, he took our 
ability to hear from Bill Barr today. To protect? Maybe. 
Because some didn't feel like they could ask proper questions? 
Maybe they wanted more staff questions? Who knows?
    Yesterday we found this, that he claims that he wants staff 
to question the Attorney General because the 5-minute-per-
member is not enough. Yet we approved a motion yesterday that 
said we could do a whole hour, an extra hour, between Chairman 
and myself. He could have took one of these fabulous Members 
that he has and some excellent attorneys on his side, some of 
the best--he could have given them all 30 minutes, and they 
could have questioned the Attorney General any way they wanted 
to.
    Instead, we go back to a circus political stunt to say we 
want it to look like an impeachment hearing because they won't 
bring impeachment proceedings. That is the reason. Take 
whatever you want to take. You can go out and have press 
conferences. You could say it from this dais. You could say 
whatever you want to have. The reasons Bill Barr is not here is 
because the Democrats decided they didn't want him here today. 
That is the reason he is not here.
    You could have done anything else you wanted. What is 
amazing to me is to say that he is scared of answering 
questions, scared--you can disagree with the Attorney General 
all you want. For yesterday, he sat for over almost 6 hours in 
the Senate voluntarily answering questions, even on a second 
round that was taken up by Democrats who wanted to ask more 
questions.
    You can agree, did he do good; did he do bad? It doesn't 
matter. We are not getting that opportunity today because the 
stunt and the circus continues over here.
    All we had to do--we agreed to more time. We could talk 
about executive session. But no. For some reason, for some 
purpose, except the optics of something they can't do or don't 
want to do right now, they wanted to have a staff member ask 
questions.
    I said before, if that staff member wants to ask questions 
so desperately, run for Congress. Put a pin on. Find a 
committee. I could continue on and on about the issue that we 
have here and the impeachment agenda, and whatever you want to 
have, and saying that he is blackmailing this committee; he is 
terrified to come before this committee. I think yesterday he 
proved he is not terrified to sit before anybody, especially 
the Senate, which they actually extended the question time on.
    He answered the question, whether you like the question or 
not. As my chairman told me yesterday, it is not a matter of 
whether we agree or disagree on this. We have the motion; we 
move the motion; we do the motion. You can agree with the 
Attorney General or disagree with the Attorney General, but not 
hearing from him is a travesty for this Committee today.
    I would be remiss if I also did not mention the largest 
tragedy of this day that actually was from yesterday.
    The chairman just stated a few moments ago that we can't 
let moments pass, and I agree completely, because what happened 
yesterday on this dais was a travesty. When you do not 
recognize Members for valid motions, when you call things 
dilatory, questioning the motives of what Members are doing it 
for. I have sat on this Committee for 6 years. I have sat 
through hours of motions to strike the last word, of giving 
other Members on the minority side more time. One of my biggest 
concerns I ever had with Chairman Goodlatte is, why do you let 
it continue? Just call the previous question. On two occasions 
last Congress, he did on resolutions of inquiry, after almost 6 
to 7 hours of debate.
    The question I have here is not what Bill Barr is scared 
of? My question is, what are the Democrats scared of? They 
don't want Bill Barr here today. They have had the report. They 
have read it. They don't like what is in it. The chairman won't 
even go look at what the Attorney General offered him. It is 
pretty amazing to me he wants to go in executive session and 
ask questions about it, but he won't go read it.
    Now, you can go read it and ask for more. Here is the 
problem today, and this problem from yesterday is not over. If 
the majority wants to run a Committee in which minority rights 
do not matter, parliamentary procedure does not matter--we saw 
it on full display yesterday--it will not continue. We will 
continue this exercise, and we will exercise what we have as a 
minority, which is the minority right to ask questions, to make 
motions. Because at the end of the day, unless we have 
forgotten, Mr. Chairman, you have got more votes than we do; 
you will get what you want. Just like we sat on this side and 
you sat on this side and got to spend hours talking about 
whatever you wanted to talk about while Chairman Goodlatte sat 
there and let you do it. All you want to do--and the question 
that bothered me the most yesterday was: We have got time; we 
got to get on to another bill.
    Timing does not trump minority rights. There is not a 
member on this dais that should say it is not. Freshman Members 
or anybody else who is here for the first time, that is not how 
this Committee works. If you don't believe me, ask Chairman 
Sensenbrenner. For three times, three times was chairman of 
this subcommittee. He laid it out clearly yesterday.
    When we degrade Members on my side, calling Mrs. Lesko's 
amendment ridiculous, calling ours dilatory, that is just wrong 
and should offend everybody on this dais.
    Mr. Chairman, this is wrong. The tragedy of today is not 
that you have an empty chair, not that you have props. You can 
call the Attorney General whatever you want. I am reminded of 
sticks and stones kind of quote. What really bothers me today 
is the travesty of what happened to minority rights yesterday. 
There is not a member of the Democrats who were on this 
Committee last year that can honestly look me in the face and 
say you all were not treated much better by a chairman who 
actually followed the rules than we were treated yesterday.
    I yield back.
    Chairman Nadler. Thank you, Mr. Collins.
    Ordinarily, at this point, I would introduce the witness. 
Instead we will conclude this proceeding.
    I just want to say we didn't choose not to have Mr. Barr 
come. He chose. We cannot permit him or anybody in the 
Administration to dictate the manner in which we function. This 
does not include our inquiry into the Attorney General's 
handling of the Mueller report nor his conduct before Congress.
    Mr. Gaetz. Point of parliamentary inquiry.
    Chairman Nadler. Nor does it conclude our efforts--
    Mr. Gaetz. I seek recognition--
    Chairman Nadler. --of the entire report and its underlying 
materials.
    We will not hear from the Attorney General today. This 
Committee intends to obtain the information that it needs to 
conduct its constitutional oversight and legislative 
responsibilities. We will defend the prerogatives of Congress. 
We will defend the rights of the American people to know what 
is going on. We will defend the constitutional scheme of equal 
and coordinate branches of government. We will make sure that 
no President becomes a monarch. We need the information without 
delay. The hearing is adjourned.
    [Whereupon, at 9:20 a.m., the Committee was adjourned.]

                                 [all]
</pre></body></html>
